      Department of Homeland Security





        Inspection of FEMA’s Regional Offices –
                         Region IX




OIG-12-43                                         February 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the Federal Emergency Management
Agency’s Region IX Office. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................6


     Preparedness ..................................................................................................................6

     Recommendations........................................................................................................11 

     Management Comments and OIG Analysis ................................................................11 


     Response ......................................................................................................................13


     Recovery ......................................................................................................................16

     Recommendation .........................................................................................................18 

     Management Comments and OIG Analysis ................................................................18 


     Mitigation.....................................................................................................................19


     Grants...........................................................................................................................21

     Recommendation .........................................................................................................24 

     Management Comments and OIG Analysis ................................................................24 


     Mission Support ...........................................................................................................25 


     Office of the Regional Administrator ..........................................................................27 

     Recommendations........................................................................................................32 

     Management Comments and OIG Analysis ................................................................32 


     Conclusion ...................................................................................................................34


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................35 

     Appendix B:           Management Comments to the Draft Report .......................................36 

     Appendix C:           Regional Responsibilities and Delegated Authorities..........................42 

     Appendix D:           FEMA Grant Programs ........................................................................43 

     Appendix E:           Major Contributors to this Report........................................................44 

     Appendix F:           Report Distribution ..............................................................................45 

Abbreviations
ARRA       American Recovery and Reinvestment Act of 2009
BCA        benefit cost analysis
CFR        Code of Federal Regulations
CNMI       Commonwealth of the Northern Mariana Islands
COTR       contracting officer’s technical representative
DHS        Department of Homeland Security
FEMA       Federal Emergency Management Agency
FMAG       Fire Management Assistance Grant
FY         fiscal year
HMA        Hazard Mitigation Assistance
IMAT       Incident Management Assistance Team
OCFO       Office of the Chief Financial Officer
OCSP       Office of Counterterrorism and Security Preparedness
OIG        Office of Inspector General
PKEMRA     Post-Katrina Emergency Management Reform Act of 2006
RAC        Regional Advisory Council
RECCWG     Regional Emergency Communications Coordination Working Group
RESP       Regional Exercise Support Program
RRCC       Regional Response Coordination Center
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Federal Emergency Management Agency (FEMA) maintains
                10 Regional Offices, which are responsible for implementing the
                agency’s programs and policies; preparing for, responding to, and
                recovering from disasters and emergencies; and mitigating against
                all hazards. Our primary objective was to determine whether
                FEMA’s Regional Offices are effectively meeting their
                responsibilities. This report focuses specifically on Region IX.

                Region IX has consistently engaged its stakeholders at the state,
                local, and tribal levels in order to identify and address regional
                priorities across all phases of the emergency management cycle.
                In general, Region IX has made great efforts to fulfill its legislated
                responsibilities and implement several delegated authorities, but
                we identified areas for improvement.

                Region IX faces both budgetary and staffing shortfalls across its
                divisions and programs. Region IX needs additional guidance in
                the area of preparedness, and needs further guidance or instruction
                on the roles and responsibilities of Region IX’s Protection and
                Prevention mission area. Improvements and assessments are still
                needed in the disaster grants closeout process to identify issues that
                may be causing extensive delays. Region IX is also limited in its
                ability to conduct financial and programmatic monitoring of
                disaster and nondisaster grant programs.

                The Regional Advisory Council has not been maintained;
                therefore, Region IX is missing opportunities to identify and
                remediate weaknesses or deficiencies in preparedness, protection,
                response, recovery, and mitigation activities. We are making eight
                recommendations that, when implemented, should improve the
                effectiveness of FEMA’s Region IX Office.




                  Inspection of FEMA’s Regional Offices – Region IX 


                                       Page 1

Background
              FEMA Regional Offices

              The Federal Emergency Management Agency (FEMA) maintains
              10 Regional Offices (figure 1), each of which is led by a Regional
              Administrator who reports to the FEMA Administrator. The
              FEMA Administrator has said that he believes emergency
              management organizations are most responsive and effective when
              the authority to make operational decisions is delegated to the
              command levels in the field with “boots on the ground.” As a
              result, FEMA headquarters is developing the policies, or “rules and
              tools,” of the programs that the agency manages, while the
              Regional Offices are becoming increasingly responsible for
              implementing those programs in the field.

        Figure 1. FEMA Regions




        Source: FEMA




               Inspection of FEMA’s Regional Offices – Region IX

                                    Page 2
Figure 2. FEMA Region IX

  FEMA Region IX Pacific Jurisdictions
                                                                  Nevada
       RMI
                                                                  Region IX HQ
    4,625 miles                                                   Oakland, CA
                                                                  Pasadena AFO
     CNMI
                                                                  Arizona
  5,700 miles

   Guam
   5,800 miles


       FSM
     5,350 miles
                                                                             HI
  American Samoa
                                                               Pacific Area Office
  4,750 miles
                                                               (Ft. Shafter, HI)
                                                               2,500 Miles

                                                                                     2

Source: FEMA Region IX

         Region IX, whose Regional Office is in Oakland, California, works
         in partnership with the emergency management agencies of
         Arizona, California, Hawaii, and Nevada, as well as the territories
         of American Samoa and Guam, the Commonwealth of the
         Northern Mariana Islands (CNMI), the Republic of the Marshall
         Islands, the Federated States of Micronesia, and the Region’s 156
         federally recognized tribes. Region IX maintains a Pacific Area
         Office in Honolulu, Hawaii, and an Area Field Office in Pasadena,
         California. Region IX serves a culturally diverse population in
         excess of 36 million people and covers 386,000 square miles
         (figure 2).

         To accomplish its mission, Region IX maintains a workforce of
         171 permanent full-time employees. The Region’s most common
         disasters are earthquakes, wildfires, hurricanes, typhoons, and
         other storms that can cause flooding, flash flooding, and landslides.

         Regional Responsibilities

         The Regions’ mission parallels and augments the FEMA
         headquarters mission, which is to support citizens and first
         responders to ensure that the Nation works together to build,

           Inspection of FEMA’s Regional Offices – Region IX

                                Page 3
sustain, and improve our capability to prepare for, protect against,
respond to, recover from, and mitigate against all hazards. The
regional level is where FEMA engages most directly with state,
local, and tribal partners, as well as disaster survivors, to deliver
frontline services. The Regions also lead the federal response and
recovery efforts for incidents across the spectrum of all-hazards
events.

Post-Katrina Emergency Management Reform Act

Although FEMA’s regional structure was in place prior to
Hurricane Katrina, the Post-Katrina Emergency Management
Reform Act of 2006 (PKEMRA) directed FEMA to develop and
maintain robust Regional Offices and codified the following
responsibilities for the Regional Offices:

       Work with state, local, and tribal governments, emergency
       response providers, and other appropriate entities to
       identify and address regional priorities.

       Ensure effective, coordinated, and integrated regional
       preparedness, protection, response, recovery, and
       mitigation activities and programs for natural disasters, acts
       of terrorism, and other manmade disasters (including
       planning, training, exercise, and professional development).

       Assist in the development of regional capabilities needed
       for a national catastrophic response system.

       Coordinate the establishment of effective regional operable
       and interoperable emergency communications capabilities.

       Foster the development of mutual aid and other cooperative
       agreements.

       Designate an individual responsible for the development of
       strategic and operational regional plans in support of the
       National Response Plan (referred to as the National
       Response Framework since 2008).

       Staff oversee one or more strike teams to serve as the focal
       point of the federal government’s initial response efforts for
       natural disasters, acts of terrorism, and other manmade
       disasters within that Region, and otherwise build federal

 Inspection of FEMA’s Regional Offices – Region IX

                      Page 4
       response capabilities to respond to natural disasters, acts of
       terrorism, and other manmade disasters within that Region.

       Identify critical gaps in regional capabilities to respond to
       populations with special needs.

       Maintain and operate a Regional Response Coordination
       Center or its successor.

       Establish a Regional Advisory Council.

Delegated Authorities

In July 2009, and again in August 2010, the FEMA Administrator
announced the delegation of additional authorities to the Regional
Offices, intended to improve performance in the Regions and
further empower Regional Offices. We conducted a limited
inspection of Region IX’s implementation of the following
delegated authorities:

       Issue mission assignments in excess of $10 million.

       Review and approve funding for State Management
       Administrative Costs for the Public Assistance and Hazard
       Mitigation Grant Programs.

       Approve Fire Management Assistance Grants.

       Approve 40-1 actions for nondisaster acquisitions.

       Determine the annual grants monitoring requirements and
       schedule.

       Fiscally oversee the (a) Emergency Management
       Performance, (b) Emergency Operations Center, and
       (c) Driver's License Security grant programs.

       Oversee the Regional Exercise Support Program.

       Contract for airlift.




 Inspection of FEMA’s Regional Offices – Region IX

                      Page 5
Results of Review
         Region IX has made great efforts to fulfill its legislated responsibilities and
         implement most delegated authorities. An overarching concern, however, is that
         Region IX does not have sufficient resources, particularly in the areas of staff and
         funding for travel and training, to carry out its responsibilities fully and effectively.
         Region IX officials expressed concerns that they would not be able to fulfill both
         preparedness and grants responsibilities if they do not receive additional resources.

         Regional empowerment requires staffing commensurate with the scope of
         responsibility and authority. In August 2010, FEMA allocated 84 vacant
         headquarters positions to the Regional Offices to facilitate emergency preparedness,
         coordination, and planning at the local level.1 FEMA emphasized that these
         positions are an important step toward enabling the Regional Offices to take on
         increased responsibility and authority. Additionally, FEMA headquarters has
         provided the Regional Offices with increased funding for professional
         development and training.

         FEMA headquarters is taking steps in the right direction by allocating additional
         staff and resources to the Regional Offices; however, the steps so far are not
         sufficient to meet the overall needs of Region IX.

         Preparedness
                            Preparedness Activities

                            Region IX’s preparedness activities are guided by the National
                            Preparedness Division, which utilizes the preparedness cycle
                            (figure 3) to support the Region’s citizens and first responders by
                            building, sustaining, and improving preparedness capabilities.
                            Region IX strives to achieve preparedness through a continuous
                            cycle of planning, organizing, equipping, training, exercising,
                            evaluating, and improving. Region IX’s ongoing preparedness
                            efforts are intended to ensure that emergency management and
                            incident response activities are coordinated during times of crisis.




1
 The allocated positions included attorneys, disability coordinators, budget coordinators, external affairs
specialists, human capital specialists, security specialists, local business transition team leaders, operational
planners, and permanent staffing assignments for Incident Management Assistance Teams.

                              Inspection of FEMA’s Regional Offices – Region IX

                                                     Page 6
Figure 3. Preparedness Cycle




Source: FEMA

Region IX works continually with state, local, and tribal partners to
identify priority areas throughout the Region. Region IX has
hosted meetings and workshops, including biannual Preparedness
Partnership meetings and exercise planning workshops, bringing
together partners at the federal, state, local, and tribal levels.
These meetings allow Region IX stakeholders to: (1) discuss
emergency management preparedness programs; (2) share state-
and territory-specific updates, best practices, and lessons learned;
(3) conduct training and exercise planning workshops to review the
state and territory homeland security strategy; and (4) develop and
update the multiyear training and exercise plan. Region IX’s state
partners said that the Preparedness Partnership meetings provide an
excellent forum for “good, honest discussions.”

Region IX has also been working with its partners to measure and
assess preparedness capabilities. Region IX participated in the



 Inspection of FEMA’s Regional Offices – Region IX

                      Page 7
                          2010 Nationwide Plan Review.2 Its staff reviewed the plans and
                          certification matrices3 submitted by entities within the Region and
                          rated each plan on the basis of its adequacy, feasibility, and
                          completeness to manage a catastrophic event. Region IX has also
                          been involved in the completion of State Preparedness Reports,
                          which track, among other things, statewide planning efforts and
                          current preparedness capability levels.

                          Recognizing the importance of training and exercising in the
                          preparedness cycle, Region IX has led or participated in numerous
                          activities and exercises designed to increase overall preparedness.
                          Internally, Region IX has facilitated Lightning Strike Exercises,
                          which are similar to the FEMA Administrator’s Thunderbolt
                          Exercises. These small, no-notice exercises are consistent with the
                          Homeland Security Exercise and Evaluation Program guidance.

                          In addition, Region IX has worked with its partners to coordinate
                          and conduct exercises designed to validate emergency response
                          plans, policies, and procedures. For instance, in September 2010,
                          Region IX participated in the Guam Emergency Operations
                          Center/Incident Management Assistance Team Functional Exercise.
                          The exercise was intended to validate Emergency Operations
                          Center management training, the Guam All-Hazards Contingency
                          Plan, and the Guam Catastrophic Typhoon Operations Plan.

                          Furthermore, the Region participated in the activities leading up to
                          the National Level Exercise 2010. Region IX built upon the work
                          of federal, state, local, and private sector partners to develop an
                          operations plan for state and federal response to an improvised
                          nuclear device. Although the exercise was relocated to another
                          Region, the operations plan was presented to senior staff at a
                          Senior Leaders Seminar in Nevada.

                          Finally, the Region participated in the 2011 Dark Zephyr Exercise.
                          Region IX subject matter experts participated in a series of tabletop
                          exercises focusing on the release of aerosolized anthrax in San
                          Francisco, California. Throughout the exercise, Region IX
                          coordinated with the U.S. Department of Health and Human


2
  The 2010 Nationwide Plan Review was a legislatively mandated assessment of the catastrophic plans of
all 50 states, the District of Columbia, territories, and 75 urban areas.
3
  The certification matrix provided basic data about the jurisdiction’s plans and related appendices and
annexes, including a self-assessment of each document’s adequacy, feasibility, and completeness using a
five-point scale.

                            Inspection of FEMA’s Regional Offices – Region IX

                                                  Page 8
Services, which serves as the lead federal agency for a public
health emergency, to discuss the roles and responsibilities of each
agency during an anthrax response.

Preparedness Programs

Although Region IX is engaged in numerous activities designed to
improve the overall preparedness of the jurisdictions that it serves,
it faces numerous challenges that hinder these efforts. Although
FEMA and DHS leadership have cited Individual and Community
Preparedness as the overarching priority for fiscal year (FY) 2011,
Region IX does not have enough permanent staff to fulfill the roles
and responsibilities of the Individual and Community Preparedness
program initiative. According to the FY 2011 Regional-National
Preparedness Annual Program Plan guidance from FEMA
headquarters, each Region is responsible for increasing the
preparedness of communities and individuals through the support
and coordination of locally developed preparedness programs that
have the greatest impact on communities within the Region.

Only one individual, an employee contracted by FEMA
headquarters, has been dedicated to the Individual and Community
Preparedness program initiative in Region IX. Although FEMA
headquarters is working with Region IX to convert the contract
employee into a permanent full-time federal employee, Region IX
officials said that there are too many core functions or activities for
one person to focus on and accomplish within 1 year. Without the
necessary resources, Region IX is limited in its ability to focus on
and participate in a wide variety of Individual and Community
Preparedness initiatives and events.

Region IX also needs additional guidance from FEMA
headquarters on how to implement its roles and responsibilities in
the Protection and Prevention mission initiative. According to the
FY 2011 Regional-National Preparedness Annual Program Plan
from FEMA headquarters, each Region is responsible for
(1) promoting information sharing; (2) increasing collaboration;
and (3) facilitating relationships between emergency management
and law enforcement entities to enhance protection and prevention
capabilities in the Region. Although FEMA headquarters has
recently provided several documents related to this mission
initiative, Region IX officials said that the Region still does not
have sufficient instructions to guide its Protection and Prevention
activities. The Region has essentially interpreted the area itself.

 Inspection of FEMA’s Regional Offices – Region IX

                      Page 9
                           Staff have attended meetings and independently established
                           relationships with participants, such as Fusion Center and local law
                           enforcement officials. Region IX officials are concerned that
                           without a FEMA-wide strategic approach to the Protection and
                           Prevention mission, the level of information sharing and
                           collaboration with the interagency community may be inconsistent
                           from one Region to another.

                           Regional Exercise Support Program

                           Region IX needs more contract oversight to be able to fully
                           implement the authority to oversee the Regional Exercise Support
                           Program (RESP), which was designed to provide support to
                           regionally coordinated exercise initiatives.4 The draft FEMA
                           RESP Implementation Plan, dated October 2009, states that the
                           Regional Offices are responsible for reviewing, approving, and
                           managing exercise initiatives funded through the RESP.
                           Additionally, the guidance states that FEMA headquarters is to
                           maintain overall contractual responsibility for the RESP, to include
                           writing statements of work and awarding contracts. Region IX
                           officials contend that because they do not have contracting
                           officer’s technical representative (COTR)5 authority for RESP,
                           they are unable to manage the contractor’s performance. Region
                           IX would benefit from having a COTR or a task monitor6 to
                           provide local oversight of the RESP contractor.

                           Conclusion

                           Region IX needs additional permanent staff to fulfill its
                           preparedness roles and responsibilities. Its current staffing level
                           limits its ability to focus on and participate in a wide variety of
                           preparedness initiatives and events. Furthermore, Region IX needs
                           direction and guidance from FEMA headquarters that establishes
                           the roles and responsibilities of the various stakeholders for the
                           Protection and Prevention mission to ensure a coordinated effort
                           across Regional Offices. Finally, Region IX needs additional



4
  The RESP supports regional, state, territorial, federally recognized tribes, local, and Urban Area Security
Initiative-designated metropolitan area exercise initiatives. Specifically, the RESP provides (1) facilitation
of Training and Exercise Plan Workshops, (2) delivery of the Homeland Security Exercise and Evaluation
Program Mobile Training Course, and (3) exercise support.
5
  The COTR supports the contracting officer by administering and directing the agreement within the confines
of the contract, monitoring performance, and ensuring that requirements meet the terms of the contract.
6
  Task monitors observe contractor performance and provide technical feedback to the COTR.

                             Inspection of FEMA’s Regional Offices – Region IX

                                                   Page 10
     contract oversight to fully implement the authority to oversee the
     RESP.

Recommendations
     We recommend that the Deputy Administrator, Protection and
     National Preparedness, FEMA Headquarters:

     Recommendation #1: Address the Region’s request for staff
     dedicated to Individual and Community Preparedness initiatives
     and outreach.

     Recommendation #2: Provide further guidance or instruction on
     the roles and responsibilities of Region IX in the Protection and
     Prevention mission area.

     Recommendation #3: Coordinate with Region IX to develop a
     pilot program that allows regional staff to serve as either a
     contracting officer’s technical representative or a task monitor for
     the Regional Exercise Support Program.

Management Comments and OIG Analysis
     Recommendation #1: FEMA concurred with this
     recommendation. The National Preparedness Directorate’s
     Individual and Community Preparedness program currently funds
     one contractor position in Region IX to develop and strengthen
     community preparedness efforts among Region IX states.

     FEMA recognizes the criticality of dedicating staff to this priority
     and plans to hire a federal employee to fulfill the requirements of a
     Community Preparedness Specialist in Region IX. As for additional
     positions dedicated to Individual and Community Preparedness,
     the Regional Administrators have the authority to realign positions
     with their offices based on their respective priorities.

     We consider this recommendation resolved because steps are being
     taken to implement it. However, it will remain open until evidence
     is provided that Region IX has sufficient permanent staff to fulfill
     the roles and responsibilities of the Individual and Community
     Preparedness program initiative.

     Recommendation #2: FEMA did not concur with this
     recommendation. In 2010, FEMA’s Protection and National

      Inspection of FEMA’s Regional Offices – Region IX

                          Page 11
Preparedness Office of Counterterrorism and Security
Preparedness (OCSP) developed two guidance documents intended
to provide the Regional offices with clarification and support in
implementing and coordinating preparedness, prevention and
protection mission area activities. OCSP developed the following
documents: (1) Regional Prevention and Protection Roles and
Responsibilities and (2) Regional Coordination Strategy –
Prevention and Protection Mission Support.

On August 12, 2010, OCSP released these documents to the
Regional Federal Preparedness Coordinators. Region IX
acknowledged receipt of these documents, as well as a joint memo
that was issued in June 2011, and was encouraged by the updated
guidance.

We consider this recommendation unresolved and open because
Region IX officials continue to express a need for further policy
and guidance on roles and responsibilities particularly as they
pertain to other DHS components and law enforcement agencies.
A stronger understanding within the interagency community is
needed to facilitate greater collaboration and information sharing.

Recommendation #3: FEMA did not concur with this
recommendation. FEMA headquarters officials said the Regions
do not require COTR authority to manage and/or monitor
contractor performance of the RESP because they already retain
broad authority over the implementation of the RESP and the
performance of contractors.

FEMA headquarters officials also stated that the RESP contract
has been administered by headquarters to maximize efficiency of
resources and that a distributed RESP would create unnecessary
redundancy of effort, negating current efficiencies realized through
central contract management.

FEMA headquarters officials said that they are transitioning to a
new contracting model for exercise services that will allow
tailoring of exercise support for the Regions. The new model
requires multiple contracts, and it is not efficient for multiple
contracts to be managed within each respective Region to support
the same overarching program.

As in some other areas, we see a disconnect between the perceptions
of FEMA headquarters and Region IX officials. FEMA

 Inspection of FEMA’s Regional Offices – Region IX

                     Page 12
                          headquarters officials say that the Region has the authority it
                          needs, but Region IX officials told us that the RESP contract could
                          be more effectively managed if they had more oversight authority
                          in the Region. We believe that assigning a COTR or task monitor
                          in the Region, particularly on a pilot basis, is a reasonable step to
                          ensure that the Region IX RESP is adequately managed.

                          We consider this recommendation unresolved and open, and we
                          will continue to work with FEMA officials in headquarters and
                          Region IX to identify mechanisms for ensuring appropriate
                          oversight of RESP contracts.


        Response

                          Catastrophic Planning Initiatives

                          Region IX has worked extensively with its state, local, and tribal
                          partners to develop catastrophic planning initiatives. Past efforts
                          have included earthquake planning in the San Francisco Bay area
                          and in northwest Nevada, hurricane planning in Hawaii, typhoon
                          planning in Guam, and planning for the detonation of an
                          improvised nuclear device in Nevada.

                          Most recently, Region IX worked cooperatively with more than
                          1,500 representatives from federal, state, local, and tribal partners,
                          non-governmental organizations, and the private sector to develop
                          the Southern California Catastrophic Earthquake Response Plan.
                          The plan provides for a coordinated federal/state response to a
                          catastrophic earthquake on the Southern San Andreas Fault.7
                          According to Region IX officials, the plan is scheduled to be tested
                          in 2012 as a part of California’s Golden Guardian Annual Exercise
                          Program.

                          Regional Response Coordination Center/Incident Management
                          Assistance Team

                          Region IX has maintained a robust Regional Response
                          Coordination Center (RRCC) as required by PKEMRA. A critical
                          aspect of Region IX’s ability to respond to any emergency event is


7
 The San Andreas Fault is the “master” fault of an intricate fault network that cuts through rocks of the
California coastal region. The entire San Andreas Fault system is more than 800 miles long and extends to
depths of at least 10 miles.

                            Inspection of FEMA’s Regional Offices – Region IX

                                                 Page 13
the RRCC, a predesignated facility that consists of two watch
centers that maintain 24/7 regional monitoring and a coordination
center. Upon activation, the RRCC coordinates federal response
efforts within the Region and maintains connectivity with State
Emergency Operations Centers, state Fusion Centers, federal
Executive Boards, and other federal and state operations and
coordination centers that may contribute to situational awareness.
The RRCC is staffed by FEMA personnel assigned to a Regional
Support Team and, in some cases, Emergency Support Function
representatives.

Region IX also staffs and oversees three Incident Management
Assistance Teams (IMATs) that are prepared to deploy to an
incident site to provide support and assistance. Each team has four
permanent positions: team leader, operations section chief,
planning section chief, and logistics section chief. Six other
positions are filled by collateral-duty staff whose normal day-to­
day positions are elsewhere in the Regional Office. The teams
rotate among three operational statuses on a month-to-month basis:
(1) Primary—deployable and operational within 12 hours;
(2) Alternate—prepared to deploy within 8 hours of notification;
and (3) Off Call—subject to recall as necessary.

To ensure that the Regional Support Team and the IMATs are
prepared to assume their roles and responsibilities during an
incident, Region IX facilitates half-day “all-hands” standdown
training on a monthly basis and occasionally conducts Lightning
Strike Exercises. The half-day “all-hands” standdown training
focuses on response activities for specific scenarios and the
development of core capabilities. For example, the standdown
training that Region IX facilitated on March 9, 2011, coincidentally
2 days before the earthquake and tsunami in Japan, focused on four
scenarios, including one in which a tsunami impacted the northern
shores of the Hawaiian Islands.

Although Region IX has not had to deploy an IMAT for an actual
incident within its jurisdiction, it has deployed an IMAT to
participate in several exercises, as well as to Vermont to provide
support in preparation for Hurricane Earl. Region IX, as part of
the September 2010 Guam exercise, deployed an IMAT to Guam
and staffed the RRCC. Region IX officials said that deployments
such as these have greatly enhanced the preparedness of the
Region’s IMATs.



 Inspection of FEMA’s Regional Offices – Region IX

                     Page 14
Operable and Interoperable Emergency Communications

Region IX is responsible for establishing effective regional
operable and interoperable emergency communications
capabilities. To integrate disaster emergency communications
capabilities, Region IX has worked extensively with state, local,
and tribal governments to develop Emergency Communications
Plans. These plans describe the primary and backup
communications systems used by federal, state, local, and tribal
governments for emergency response efforts. Additionally, the
plans identify resources that stakeholders may request during a
catastrophic event to support emergency responders.

To further enhance the Region’s efforts to integrate disaster
emergency communications, Region IX has established a Regional
Emergency Communications Coordination Working Group
(RECCWG). The RECCWG is responsible for (1) assessing
Region IX’s emergency communications capabilities,
(2) facilitating disaster preparedness through the promotion of
multijurisdictional and multiagency emergency communications
networks, and (3) coordinating with regional stakeholders. The
RECCWG hosts monthly meetings, which Region IX officials said
have been instrumental in bringing together state, local, and tribal
governments to discuss operable and interoperable communications
issues and best practices. The RECCWG has also identified areas
where the Region needs to make improvements, such as ensuring
that tribes, as well as the Pacific Islands, have effective
communication capabilities.

Conclusion

Region IX has worked extensively with stakeholders to develop
numerous catastrophic planning initiatives. In accordance with
federal legislation, Region IX has also: (1) maintained a robust
RRCC that coordinates federal response efforts within the Region;
(2) maintained three IMATs that are prepared to deploy to an
incident site to provide support and assistance; and (3) worked to
establish effective regional operable and interoperable emergency
communications capabilities.




 Inspection of FEMA’s Regional Offices – Region IX

                     Page 15
Recovery

           Recovery Activities

           Region IX works closely with its state, local, and tribal partners to
           identify regional recovery priorities. Region IX regularly hosts
           emergency management workshops on the Public Assistance and
           Individual Assistance Programs, in which discussions are held on
           topics such as debris removal, disaster housing, and disaster
           closeout. For instance, Region IX hosted a number of summits on
           mass care and emergency assistance that were held in Hawaii,
           American Samoa, CNMI, and Guam between July and September
           2010. Specialists from Region IX participated in discussions of
           logistics, mass care, functional needs support services, and feeding.
           The goal of the meetings was to assist state and local emergency
           managers in identifying specific actions required to support and
           enhance their emergency assistance plans.

           Region IX has actively incorporated recovery activities into
           numerous catastrophic planning initiatives. For instance, during
           the planning efforts for the Southern California Catastrophic
           Earthquake Plan, Region IX provided support and subject matter
           expertise for Emergency Support Function #6—Mass Care,
           Emergency Assistance, Housing, and Human Services. The
           Region also worked closely with local and national branches of the
           American Red Cross, other nonprofit organizations, and state and
           local officials to coordinate mass care activities. Region IX
           officials said that this marked the first time Emergency Support
           Function #14—Long-Term Community Recovery—was included
           in catastrophic planning efforts.

           Fire Management Assistance Grant Program

           In an effort to enhance the effectiveness and responsiveness of the
           Fire Management Assistance Grant (FMAG) Program, the FEMA
           Administrator delegated the authority to approve or deny requests
           for fire management assistance to the Regional Administrators.
           FMAGs are made available to state and local applicants, as well as
           tribes, to minimize immediate adverse effects and to manage and
           control wildland fires that threaten to cause major disasters. To
           obtain FMAG assistance, a state is required to submit, and FEMA
           must review and approve, a fire management assistance declaration
           request. Prior to the delegation of authority, all fire management
           assistance declaration requests were processed by each Regional

            Inspection of FEMA’s Regional Offices – Region IX

                                Page 16
                          Office but approved by FEMA headquarters. Now the approval
                          process is completed at the regional level. Since this authority was
                          delegated to the Regions in August 2010, Region IX has received
                          and approved numerous requests under the FMAG program.

                          To ensure that the fire management assistance requests are
                          processed consistently and uniformly, Region IX developed a set
                          of standard operating procedures. The standard operating
                          procedures provide instructions for activities that occur
                          predeclaration, postdeclaration, and in follow-up. The Region has
                          met on a regular basis with the Principal Advisors8 and the states to
                          ensure the effectiveness of the standard operating procedures under
                          the FMAG Program.

                          Disaster Grant Closeouts

                          Region IX has made progress in the area of disaster closeouts;
                          however, challenges remain. DHS OIG reported in January 20109
                          that delays in FEMA’s disaster closeout process start at the grantee
                          level and continue through final processing at FEMA headquarters.
                          Region IX has the authority to mandate that disaster grants are
                          closed out at the grantee level.

                          The terms of the FEMA/State Agreement require grantees to
                          comply with the provisions of the Robert T. Stafford Disaster
                          Relief and Emergency Assistance Act (Stafford Act) and FEMA’s
                          regulations in Title 44 of the Code of Federal Regulations (CFR)
                          for the declared disaster assistance programs. According to 44 CFR
                          13.50, the federal agency will close out the award when it
                          determines that all applicable administrative actions and all
                          required work of the grant have been completed. Within 90 days
                          of the expiration or termination of the grant, the grantee must
                          submit all financial, performance, and other reports as a condition
                          of the grant.

                          Region IX is not consistently enforcing the terms and conditions
                          listed in the FEMA/State Agreements. This allows grantees to
                          move at a slow pace, resulting in extremely long delays in the
                          disaster closeout process. Thus, FEMA continues to incur
                          administrative costs associated with monitoring open disasters that


8
  A Principal Advisor is a federal employee who represents FEMA in verifying the information provided on 

the fire management assistance declaration request form.

9
  Opportunities to Improve FEMA’s Disaster Closeout Process (OIG-10-49), January 2010.


                            Inspection of FEMA’s Regional Offices – Region IX

                                                Page 17
     should have been closed long ago. In addition, disaster funds that
     the grantee does not need are not deobligated in a timely manner,
     which would allow the funds to be put to better use.

     Because Region IX perceives that it does not have the authority to
     compel states to comply with closing out disasters within a specific
     timeframe, it generally is not using the enforcement provisions in
     the federal regulations. According to 44 CFR 13.43, remedies for
     noncompliance include: (1) temporarily withholding cash payments;
     (2) suspending or terminating the current program award; and
     (3) withholding further awards for the program. FEMA
     headquarters needs to coordinate with its Regional Offices to
     ensure that they are adhering to the FEMA/State Agreements and
     enforcing the federal regulations for disaster grant closeouts.

     Conclusion

     Region IX continues to work closely with its state, local, and tribal
     partners to identify regional recovery priorities, as well as engage
     in numerous activities designed to improve its recovery capabilities.
     In addition, Region IX has implemented the delegated authority for
     approving FMAGs. Improvements in the area of disaster grant
     closeouts are still needed.

Recommendation
     We recommend that the Chief Financial Officer, FEMA
     headquarters:

     Recommendation #4: Ensure that the FEMA Regional Offices
     are enforcing the terms and conditions of FEMA/State agreements
     and using the remedies for noncompliance under the federal
     regulations to improve the timeliness of the disaster grant closeout
     process.

Management Comments and OIG Analysis
     Recommendation #4: FEMA concurred with this
     recommendation. As part of the larger Grant Management
     remediation activity in FY 2012, FEMA will be addressing the
     internal control weaknesses affecting disaster grant closeout.

     We consider this recommendation resolved because steps are being
     taken to implement the planned corrective action. However, it will

      Inspection of FEMA’s Regional Offices – Region IX

                          Page 18
             remain open until evidence is provided that FEMA is enforcing the
             terms and conditions of the FEMA/State agreements.
             Improvements are needed to address the major delays in FEMA’s
             disaster grant closeout process.

Mitigation

             Mitigation Activities

             Region IX’s Mitigation Division is responsible for promoting safer
             communities through mitigation programs that reduce the loss of
             lives and properties. The Mitigation Division has actively engaged
             its state, local, and tribal partners to identify and address regional
             priorities. Region IX’s stakeholders have identified three top
             priority areas: (1) moving from flood mapping to multihazards
             mapping; (2) developing Risk-Based Plans; and (3) developing a
             plan of action to address Region IX’s aging levee system.

             Currently, Region IX and its state, local, and tribal partners base
             their mitigation activities on maps that only indicate flood zones.
             Multihazards maps, which identify multiple disaster threats such as
             floods, earthquakes, tornadoes, tsunamis, or other potential
             disasters, can increase the Region’s abilities to focus mitigation
             activities on the full range of disaster threats, not just flooding.
             Region IX and its stakeholders have identified transitioning to
             multihazards mapping as one of their top priorities.

             Under section 322 of the Stafford Act, to receive an increased
             federal share for hazard mitigation grant funding, a state must have
             an approved mitigation plan, also called a State Plan, in place prior
             to a disaster. A state can also submit a more enhanced Risk-Based
             Plan that takes into account more variables, such as population,
             topography, and any unique situation that might affect the state’s
             mitigation needs. Region IX is working with stakeholders to
             approve State Plans and Risk-Based Plans to ensure that grantees
             receive the maximum federal assistance available after a disaster.

             The third mitigation priority area for Region IX is the levee
             systems. Certain areas in Region IX rely on levees to mitigate the
             risk of flooding. However, the Region’s levee infrastructure is
             aging, and Region IX officials expressed concern that many levees
             have not been properly maintained. This equates to an increased
             risk of a catastrophic disaster should these levees fail. Region IX


              Inspection of FEMA’s Regional Offices – Region IX

                                  Page 19
                          is working with its stakeholders to focus on the development of
                          mitigation plans to address the aging levees.

                          Assessing Cost-Effectiveness

                          Region IX provides Hazard Mitigation Assistance10 (HMA) to its
                          state, local, and tribal partners to help fund projects designed to
                          reduce or eliminate the risks associated with natural hazards.
                          Before providing HMA, Region IX works with its partners to
                          validate the cost-effectiveness of mitigation projects. According to
                          the Hazard Mitigation Assistance Unified Guidance, mitigation
                          projects must be cost-effective to be eligible for HMA funding, as
                          demonstrated by a FEMA-validated benefit cost analysis (BCA).
                          The BCA, which is performed at either the applicant or
                          subapplicant levels, evaluates the future benefits of the mitigation
                          project in relation to the project costs.

                          In the past, Region IX has also conducted loss avoidance
                          methodology studies to quantitatively assess the benefits of a
                          completed project in terms of its performance during an actual
                          event. The goal of the loss avoidance studies was to answer the
                          question, “How much damage could have occurred if the
                          mitigation project had not been in place?” The results of these
                          studies were used to demonstrate the effectiveness of projects and
                          to promote the value of investing in future mitigation measures.
                          However, Region IX officials said that although the loss avoidance
                          methodology studies have proved to be a powerful tool from which
                          Region IX could benefit, the studies were deemed too expensive to
                          continue.

                          State Management Administrative Costs

                          Region IX has successfully implemented the authority to review
                          and approve funding for State Management Administrative Costs
                          for the Public Assistance and Hazard Mitigation Grant Programs.
                          This authority transferred the approval of State Management
                          Administrative Costs from FEMA headquarters to the Regional
                          Offices. Under section 324 of the Stafford Act, management costs
                          are any indirect costs, administrative expenses, and any other
                          expenses not directly chargeable to a specific project.


10
  Hazard Mitigation Assistance is available through five programs: (1) Hazard Mitigation Grant Program,
(2) Pre-Disaster Mitigation, (3) Flood Mitigation Assistance, (4) Repetitive Flood Claims, and (5) Severe
Repetitive Loss.

                            Inspection of FEMA’s Regional Offices – Region IX

                                                 Page 20
         According to federal regulation 44 CFR 207.5, the State
         Management Administrative Costs ceiling is calculated by a flat
         percentage rate for Public Assistance—3.34% for major disaster
         declarations and 3.90% for emergencies. The Hazard Mitigation
         rate is 4.89% for major disaster declarations. However, before
         claimed costs can be reimbursed to the grantee, Region IX
         personnel must determine if such expenses are eligible. Region IX
         receives a request for reimbursement package from the grantee
         along with supporting documentation such as the types of supplies
         requested, description, and primary use of equipment. Region IX
         reviews the State’s request for reimbursement package and
         supporting documentation to determine the reimbursable amount
         based on the terms of the State Administrative Plan. Once the
         review is completed and the reimbursable costs are accepted,
         Region IX can approve and obligate the requested funds for
         reimbursement. Region IX officials said that this authority has
         helped to streamline the approval process and has allowed the
         Region to directly serve the needs of grantees, thus giving the
         states more immediate access to needed funds.

         Conclusion

         Region IX is working with partners to identify and address
         mitigation priorities and has successfully implemented the review
         and approval of State Management Administrative Costs.

Grants
         Grant Program Activities

         FEMA uses grant programs to help state, local, and tribal
         governments, as well as nonprofit organizations, prepare for and
         recover from emergencies and disasters. FEMA headquarters’
         Grant Programs Directorate, along with its Regional Offices,
         administers grants in the areas of disaster assistance and
         operations, homeland security, mitigation, and national
         preparedness.

         FEMA headquarters and its Regional Offices are responsible for
         ensuring the integrity of the use of federal grant funds through
         oversight activities, which include both financial and programmatic
         monitoring. A primary goal of FEMA’s financial monitoring is to
         ensure grantee compliance with applicable federal regulations.

          Inspection of FEMA’s Regional Offices – Region IX

                              Page 21
Programmatic monitoring focuses on progress toward achieving
goals and objectives of the grant programs. FEMA headquarters
and its Regional Offices are working to find effective ways to
incorporate financial and programmatic oversight activities for a
more comprehensive review of how each grantee is using federal
funds.

In an effort to enhance the effectiveness and responsiveness of
disaster and nondisaster grant programs, the FEMA Administrator
delegated the responsibility for determining the annual grants
monitoring requirements and schedule to the Regional Offices. In
FY 2009, FEMA headquarters transferred the responsibility for
financial and programmatic oversight of five grant programs to the
Regional Offices. At the time of our review, Region IX was
responsible for the financial monitoring of approximately 73 grant
programs, and FEMA headquarters was responsible for the
financial monitoring of 4 grant programs (appendix D). Region IX
is responsible for the programmatic monitoring of five grant
programs, including the Driver’s License Security Grant Program
(Real ID), Emergency Management Performance Grant Program,
and Emergency Operations Centers Grant Program. The Grant
Programs Directorate provides programmatic monitoring oversight
for the remaining disaster and nondisaster grant programs, and is
responsible for business operations, systems, training, policy, and
procedures supporting all FEMA grant programs.

Grants Monitoring Requirements and Schedule

Region IX has made significant progress in standardizing and
streamlining the financial monitoring requirements applicable to its
grant programs; however, the Region faces challenges in
conducting financial and programmatic oversight activities for
many grant programs.

The Grant Programs Directorate developed a Financial Monitoring
Plan that was last issued on November 19, 2010. The Financial
Monitoring Plan is issued annually and requires each Regional
Office to conduct financial monitoring on its designated grantees
and incorporate the requirements set forth in the Financial
Monitoring Plan into the annual monitoring schedule and
activities.

According to Region IX, it is a challenge to conduct financial and
programmatic monitoring of disaster and nondisaster grant

 Inspection of FEMA’s Regional Offices – Region IX

                     Page 22
                             programs because of (1) the magnitude of the workload, (2) the
                             Region’s geographical size, (3) limited staffing, and (4) budget
                             restrictions (i.e., travel funds). Additionally, Region IX does not
                             have sufficient access to the grant specialists at FEMA
                             headquarters who are subject matter experts in various grant
                             programs needed to conduct programmatic reviews. In July 2009,
                             Region IX was delegated the authority to “fiscally oversee”11 the
                             Driver’s License Security Grant Program (Real ID), the
                             Emergency Management Performance Grant Program, and the
                             Emergency Operations Centers Grant Program. Region IX was
                             unable to adequately conduct the programmatic monitoring for
                             these grant programs or to provide technical assistance site visits to
                             a number of grantees because of insufficient resources. Therefore,
                             Region IX’s primary focus was attempting to meet the financial
                             monitoring plan requirements, which reviewed certain grantees
                             identified as high-risk or high-dollar grant recipients. Given the
                             resource challenges, Region IX officials are concerned that they
                             will not be able to fully meet the requirements of the financial
                             monitoring plan for this fiscal year.

                             For example, the Pacific Islands require a great deal of grants
                             oversight and technical assistance. To provide an adequate level of
                             monitoring and technical assistance, personnel from Region IX
                             must travel to the islands, which is extremely expensive and affects
                             the Region’s overall monitoring efforts. Region IX has to rely
                             more on desk reviews for its monitoring process, rather than onsite
                             reviews during which officials would be able to provide guidance
                             to the grantee in person. In FY 2011, the Region IX Grants
                             Division received a budget of approximately $52,000, but its actual
                             needs were projected to be approximately $92,000 for the year.

                             Region IX officials believe they can be more effective now that
                             they have the authority to determine the annual grants monitoring
                             requirements and schedule; however, the Region needs additional
                             resources to adequately oversee the grant programs. Without
                             adequate oversight, grant funds are at risk of waste, fraud, abuse,
                             or mismanagement. To address these challenges, Region IX’s
                             Grants Division has developed planning documents detailing
                             future projected grant activity and additional staffing positions. In
                             addition, Region IX’s Grants Division has met with and expressed
                             its concerns to the Regional Administrator and FEMA headquarters’



11
     The term “fiscally oversee” involves both financial and programmatic monitoring.

                               Inspection of FEMA’s Regional Offices – Region IX

                                                   Page 23
     Grant Programs Directorate, and they have discussed potential
     solutions to those issues.

     Conclusion

     To fully implement the authority to determine the annual grants
     monitoring requirements and schedule and to fiscally oversee the
     Driver’s License Security Grant Program (Real ID), Emergency
     Management Performance Grant Program, and Emergency
     Operations Centers Grant Program, Region IX should continue to
     coordinate with the Regional Administrator and FEMA headquarters
     to acquire the resources it needs to ensure adequate oversight of its
     grant programs.

Recommendation
     We recommend that the Regional Administrator, FEMA Region IX:

     Recommendation #5: Realign staffing and resources to ensure
     that Region IX’s Grants Division can properly conduct financial
     and programmatic monitoring of disaster and nondisaster grant
     programs.

Management Comments and OIG Analysis
     FEMA concurred with this recommendation. FEMA said that the
     Region IX Grants Management Division was tentatively identified
     as a pilot for regionalization of Homeland Security Grant Programs
     that are currently being managed by the FEMA Grant Programs
     Directorate. According to FEMA, the pilot may provide additional
     resources to support the existing and increased workload assigned
     to the Region. The pilot project requires an implementation plan
     that includes an assessment to determine the additional resources
     needed by the Region. FEMA projected that the assessment will
     be completed in December 2011.

     We consider this recommendation resolved because steps are being
     taken to implement it. However, it will remain open until evidence
     is provided that the implementation plan was completed and the
     necessary additional resources have been provided to the Region.




      Inspection of FEMA’s Regional Offices – Region IX

                          Page 24
Mission Support

          40-1 Actions for Nondisaster Acquisitions

          The FEMA Administrator delegated the authority to approve
          FEMA Form 40-1 actions for nondisaster acquisitions to the
          Regional Administrators. The FEMA Form 40-1, Requisition and
          Commitment for Services and Supplies, provides a detailed
          description of goods and services, the recommended source(s) of
          supply, and an estimated dollar amount needed to complete an
          activity. The form is typically used to acquire supplies, equipment,
          and services ranging from general office supplies to flu vaccinations
          for employees. Prior to the delegation of this authority, the process
          required the Region to forward all FEMA Form 40-1s to the Office
          of the Chief Financial Officer (OCFO) at FEMA headquarters for
          processing, which delayed the commitment of funds.

          FEMA’s OCFO provided the Policy for the Limited Delegation of
          Funds Certification Authority to FEMA Components to guide the
          Regional Offices in approving FEMA Form 40-1 actions. The
          policy delegated to all FEMA components, including the Regional
          Offices, the authority to certify funds and make commitments for
          all nondisaster acquisitions below $500,000.

          Region IX has trained and formally designated three personnel to
          have funds certification and commitment authority on behalf of the
          Region, in accordance with FEMA and OCFO guidance. Region
          IX routinely exercises this authority, but it has not been used for
          any acquisitions nearing the $500,000 threshold. The ability to
          approve FEMA Form 40-1 actions has allowed the Region to
          expedite time-sensitive acquisitions.

          Contract for Airlift

          In 2009, FEMA headquarters delegated to the Regional
          Administrators the authority to contract for or issue mission
          assignments to provide airlift support. FEMA contracts or mission
          assigns airlift support to rapidly transport people and response
          supplies in the event of a disaster. Historically, FEMA
          headquarters has maintained authority to contract for airlift
          services. During an emergency or response situation, the Regional
          Offices would contact FEMA headquarters, which would attempt
          to find a contractor close to the Region in need. This process was
          time-consuming and provided little visibility to the Regions. With

            Inspection of FEMA’s Regional Offices – Region IX

                                Page 25
the delegated authority, the Regional Offices can quickly contract
for airlift services, as long as the contract is within the contracting
officer’s warrant limitations.

Within Region IX, three personnel have warrant authority to
contract for airlift services. They have received sufficient training
and have access to the Federal Acquisition Regulation, the DHS
Acquisitions Manual, and the Automated Acquisition Management
System.

In December 2010, Region IX exercised this authority for the first
time by entering into a contract with an airlift provider in Arizona.
The airlift capabilities allowed Region IX to provide recovery
support for the Sovereign Tribal Nation of the Havasupai Tribe
following severe storms and flooding.

Mission Assignments

A mission assignment is a work order issued by FEMA to another
federal agency that directs the completion of a specific task to meet
urgent, immediate, and short-term needs. In July 2009, the FEMA
Administrator delegated unlimited authority to the Regional
Administrators to approve mission assignments. The Regional
Administrators are responsible for providing monthly reports on
the status of mission assignments exceeding $25 million to the
Chief Financial Officer, who is responsible for consolidating and
providing reports to FEMA leadership. Region IX’s Mission
Support Division is responsible for obligating the funds used to
support mission assignments. According to a FEMA official, this
authority has not yet been used; however, Region IX believes it
will be extremely effective during a major disaster because there
will be no delays in issuing mission assignments.

Conclusion

The delegated mission support authorities will allow Region IX to
streamline its processes and respond more quickly to disaster
situations. Region IX has trained personnel to approve 40-1
acquisitions, contract for airlift, and issue mission assignments.




 Inspection of FEMA’s Regional Offices – Region IX

                     Page 26
Office of the Regional Administrator

           Individuals With Access and Functional Needs

           Region IX’s Disability Coordinator has worked extensively to
           identify critical gaps in Region IX’s capabilities to respond to the
           population with access and functional needs. However, Region IX
           needs to improve its coordination with that community and its
           training of FEMA personnel. In August 2010, the FEMA
           Administrator assigned a Disability Coordinator position to each
           Regional Office. The responsibilities of the Disability Coordinator
           are as follows:

               (1) providing guidance and coordination on matters related to
               individuals with access and functional needs in emergency
               planning requirements and relief efforts;

               (2) consulting with organizations that represent the interests
               and rights of individuals with disabilities about their needs in
               emergency planning requirements and relief efforts;

               (3) coordinating and disseminating best practices and model
               evacuation plans for individuals with disabilities; and

               (4) ensuring the development of training materials and a
               curriculum for training emergency response providers; state,
               local, and tribal government officials; and others on the needs
               of individuals with disabilities.

           A particular focus for Region IX is ensuring that those with access
           and functional needs are integrated into planning efforts from the
           start, instead of as an annex to plans. The FEMA Administrator
           has said, “My experience tells me if we wait and plan for people
           with disabilities after we write the basic plan, we fail.”
           Incorporating those with access and functional needs into planning
           requires a significant amount of coordination and outreach,
           especially since it is estimated that up to 20% of Region IX’s
           population has such needs. Region IX has engaged in numerous
           outreach efforts with emergency managers, as well as stakeholders
           from the access and functional needs community. In addition to
           speaking at various conferences, webinars, teleconferences,
           tabletop exercises, and meetings, Region IX’s Disability
           Coordinator participated as an observer in the full-scale


             Inspection of FEMA’s Regional Offices – Region IX

                                 Page 27
Radiological Emergency Preparedness Program exercise at the
Palo Verde Nuclear Generating Station in Arizona.

Although Region IX has taken steps to improve its outreach
efforts, it struggles to facilitate relationships among state, local,
and tribal jurisdictions and other qualified stakeholders from the
access and functional needs community. Region IX officials said
that this situation stems from a breakdown in communication
between leaders of the access and functional needs community and
emergency managers. The leaders need to better communicate
their challenges and viable solutions to emergency managers, and
emergency managers need to work with the leaders to develop and
implement solutions.

Region IX’s Disability Coordinator discussed the need for
mandatory training for all FEMA personnel on how to incorporate
the access and functional needs community into all aspects of
emergency management.

Training

The FEMA Administrator has said that employee development is a
top priority for the agency. To ensure that the Regional Offices are
able to “grow their own talent,” FEMA provides funding for
training at the regional level. From FY 2009 to FY 2010, Region
IX’s training budget was increased from approximately $40,000 to
$235,000 (figure 4). Region IX is working to create a single
division or office with overall responsibility for training and a
coordinated approach to the expenditure of training funds.




 Inspection of FEMA’s Regional Offices – Region IX

                     Page 28
Figure 4. Region IX Training Funds




Source: FEMA - A Region IX Approach to Internal Training.

Currently, there is no regional approach to training for Region IX.
Decision making resides in each division, and there is no forum to
collectively balance the competing demands of the Region’s
multiple divisions and offices. To remediate this issue, in
November 2010 Region IX’s National Preparedness Division
developed a white paper entitled A Region IX Approach to Internal
Training, which outlined a strategy to identify, conduct, and track
applicable training related to employee development and disaster
support roles, while ensuring senior management oversight.

The white paper also recommended the development of a Regional
Training Program and Regional Training Working Group. The
Regional Training Program will establish opportunities for
professional development and enhance the level of preparedness
for a wide range of potential emergency incidents to ensure
mission success. The Regional Training Working Group is chaired
by the Regional Deputy Administrator and consists of Division
Directors, a union representative, and the Regional Training
Manager. The working group meets monthly and focuses on
coordinating training to ensure that Region IX is using training
funds effectively.




 Inspection of FEMA’s Regional Offices – Region IX

                     Page 29
The Regional Training Working Group sent Region IX personnel a
survey inquiring about training needed to perform their duties. The
results indicated that personnel desired training that is tailored to
their specific duties and programs, as well as basic professional
development (e.g., public speaking and computer skills). The
survey results gave the working group a better knowledge of the
Region’s training needs.

Region IX manages core training requirements through several
different portals hosted by DHS and FEMA, which makes training
more difficult to track. Most of Region IX’s divisions indicated a
desire for a centralized training portal with a standardized
curriculum. This would streamline training, especially for new
employees.

Regional Advisory Council

Region IX established a mandated Regional Advisory Council
(RAC) in 2007; however, it has not been maintained. The RAC,
which is chaired by the Regional Administrator and consists of
members representing a wide variety of major stakeholders and
different disciplines, was designed to do the following:

   (1) Advise the Regional Administrator on emergency 

   management issues specific to the Region; 


   (2) Identify geographic, demographic, or other characteristics
   peculiar to any state, local, or tribal government within the
   Region that might make preparedness, protection, response,
   recovery, or mitigation more complicated or difficult; and

   (3) Advise the Regional Administrator of any weaknesses or
   deficiencies in preparedness, protection, response, recovery,
   and mitigation for any state, local, and tribal government
   within the Region.

The RAC convened on a number of occasions, but most recently in
July 2008. Bringing together all of the RAC members has proved
to be a challenge. According to Region IX officials, the Region
faces “unique challenges,” including its geographical size and
cultural differences. Region IX covers 386,000 square miles and
spans eight time zones, making it difficult and cost-prohibitive to
schedule face-to-face meetings. The use of teleconferences and



 Inspection of FEMA’s Regional Offices – Region IX

                     Page 30
video chats for meetings has not been successful because of the
multiple time zones.

Region IX officials said that changes in administrations, such as
the election of a new state Governor, have resulted in personnel
turnover throughout the emergency management community,
requiring the Region to regularly replace “anchor” members of the
RAC. These issues led to the decision to postpone RAC meetings
for a year to avoid seating new council members while the Region
was unable to hold recurring meetings.

Despite a lengthy postponement of RAC activity, Region IX
officials have continued to interact with stakeholders throughout
the Region. For instance, Region IX has brought together
members of the Regional Interagency Steering Committee. The
Regional Interagency Steering Committee exists to coordinate
interagency and intergovernmental issues related to disaster
planning and operations. Federal agencies designate
representatives to serve on the committee and participate in
regional preparedness activities. Additionally, state emergency
management agencies are encouraged to send representatives to
committee meetings and to participate in regional exercise and
training activities. Even so, Region IX officials agreed that
the RAC needs to be reinvigorated. A senior official said that the
Region is in the process of seating new council members and had
hoped to be able to reconvene RAC meetings in May 2011.

Conclusion

Despite the addition of a Disability Coordinator and increased
outreach to the access and functional needs community, Region IX
needs to integrate the access and functional needs community more
effectively into disaster planning. Furthermore, Region IX needs
to continue to support efforts to standardize and coordinate its
training curriculum to ensure the most effective and efficient use of
training funds. Finally, Region IX needs to maintain its Regional
Advisory Council to identify and remediate weaknesses or
deficiencies in preparedness, protection, response, recovery, and
mitigation activities.




 Inspection of FEMA’s Regional Offices – Region IX

                     Page 31
Recommendations
     We recommend that the Regional Administrator, FEMA Region IX:

     Recommendation #6: Coordinate, engage, and consult with
     qualified stakeholders from the access and functional needs
     community to completely integrate their needs into regionwide
     disaster planning efforts.

     Recommendation #7: Complete the Regional Training Program,
     developing a standardized or coordinated training curriculum that
     includes training to incorporate those with access and functional
     needs into disaster planning.

     Recommendation #8: Reconvene the Regional Advisory Council
     and identify alternative methods to facilitate meetings with council
     members.

Management Comments and OIG Analysis
     Recommendation #6: FEMA concurred with this
     recommendation. FEMA stated that at the time of the OIG’s visit
     to Region IX, regional offices were just beginning to integrate
     Regional Disability Integration Specialists into regional activities
     and responsibilities. Since that time, the Region IX Regional
     Disability Integration Specialist has made significant progress in
     coordinating Functional Needs Support Services–related
     interactions across a broad array of jurisdictions and operational
     areas with an emphasis on larger, more heavily populated
     jurisdictions. In turn, these stakeholders and the jurisdictions
     provide the Regional Disability Integration Specialist with
     feedback on successes, challenges, and concerns.

     Region IX has further driven the outreach initiative by forming
     FEMA's first Regional Functional Needs Working Group that met
     for the first time in late October 2011. Although travel budgets
     that allow for greater interaction and visibility continue to be an
     issue, the senior leadership in Region IX remains supportive of
     Regional Disability Integration Specialist efforts to coordinate the
     needs of the functional needs community with the realities of
     emergency management officials.

     We consider this recommendation resolved because steps are being
     taken to implement it. However, it will remain open until evidence

      Inspection of FEMA’s Regional Offices – Region IX

                          Page 32
is provided that Region IX established the Functional Needs
Working Group and is making progress in ensuring that the needs
of the access and functional needs community are met regionwide.

Recommendation #7: FEMA concurred with this
recommendation. Region IX has implemented "standdown
training days," consolidated the selection of courses and meeting
schedules to maximize participation, and developed methods to
prioritize trainees. Though internal training thus far has not
specifically targeted courses that teach methods for including those
with access and functional needs into disaster planning activities,
this topic will be proposed to the Regional Training Working
Group for incorporation into future training opportunities.

We consider this recommendation resolved because steps are being
taken to implement it. However, it will remain open until evidence
is provided that Region IX established and put into effect a
standardized or coordinated training curriculum that includes
training for how to incorporate those with access and functional
needs into disaster planning.

Recommendation #8: FEMA concurred with this
recommendation and said that on August 2, 2011, Region IX held
a meeting of its RAC at the regional office in Oakland, California.
In addition to the regional senior management team, new members
that had recently been appointed by the Regional Administrator
participated. The agenda included discussions of the six priorities
of the Regional Administrator for FY 2011 and presentations on
the Whole Community, Presidential Policy Directive #8 - National
Preparedness, and the National Disaster Recovery Framework.

Cognizant of the geographical and logistical challenges of meeting
quarterly in person, RAC members discussed alternative measures
to enhance dialog. RAC members agreed that there will be two in-
person meetings in Oakland, California, and two or more video
conference and teleconference discussions to effectively carry out
its mission. A video conference for RAC members was scheduled
for late November 2011. Region IX will also be communicating
routinely with RAC members by email, forwarding appropriate
draft documents or policies for their review and providing
information documents.

We consider this recommendation resolved because steps are being
taken to implement it. However, it will remain open until evidence

 Inspection of FEMA’s Regional Offices – Region IX

                     Page 33
             is provided that RAC has continuously held meetings and
             maintained frequent dialogue.

Conclusion
     Overall, Region IX is making significant progress toward fulfilling its
     legislated responsibilities and implementing the recently delegated
     authorities. However, staffing shortages continue to be a major
     impediment to accomplishing all of the regional responsibilities.

     Even though FEMA headquarters filled 84 vacancies across the 10 FEMA
     Regions, Region IX officials repeatedly expressed concern about staffing
     shortages, specifically in the Grants Division and the Individual and
     Community Preparedness program initiative. Considering the reduced
     workload for FEMA headquarters since the regionalization of
     responsibilities, it may be appropriate for FEMA headquarters to transfer
     additional positions to the Regional Offices.




              Inspection of FEMA’s Regional Offices – Region IX

                                  Page 34
Appendix A
Purpose, Scope, and Methodology

                   The objective of our review was to determine whether FEMA’s
                   Regional Offices are effectively meeting their legislated
                   responsibilities and implementing several delegated authorities.
                   This report is limited to our review of FEMA Region IX.

                   To accomplish our objective, we reviewed and analyzed the Robert
                   T. Stafford Disaster Relief and Emergency Assistance Act, the
                   Post-Katrina Emergency Management Reform Act of 2006, prior
                   DHS OIG and Government Accountability Office reports relevant
                   to our review, and documents provided by FEMA headquarters and
                   Region IX, as well as other applicable documents.

                   We interviewed officials from FEMA headquarters, FEMA Region
                   IX, and selected officials from state, local, and tribal jurisdictions.
                   We conducted these interviews at FEMA headquarters in
                   Washington, D.C.; Region IX offices in Oakland, California; and
                   various state, local, and tribal offices in California and Nevada.

                   We conducted this performance review between November 2010
                   and June 2011 pursuant to the Inspector General Act of 1978, as
                   amended, and according to the Quality Standards for Inspections
                   issued by the Council of the Inspectors General on Integrity and
                   Efficiency.




                    Inspection of FEMA’s Regional Offices – Region IX 


                                         Page 35

Appendix B
Management Comments to the Draft Report


                                                                                  L.S. Ol'partment uf Homeland   S4tcur·il~
                                                                                  ~t>O C Streel. SW
                                                                                  \\ aslunglon. ))(. :!U4 7~




                                                   NOV 23 2011



        MEMORAND M FOR:                       Chade K. Edwards
                                              Acting Inspector General
                                              Office orthe l~ector General
                                               ~?           or  c ; k . - / fiJ/'-/
        FROM:                                 David J. Kaufman
                                              Director
                                              Office of Policy and Program Analysis

        SUBJECT:                              FEMA's Response to OIG Draft Report, Inspectiol/ of
                                              FEMA's Regiol/ol Offices-Region IX (O[G Project No.
                                              II-008-EMO-FEMA)


        Thank you for the opportunity to comment on your draft report. The findings in the report will be
        used to strengthen the effectiveness and efticiency of how we execute and measure our
        programs. We recognize the need to continue to improve our processes. including addressing the
        recommendation' raised in this report. Our resl onses to your nine recommendations are a
        follows:

        Recommendation # I: Address the Region's request for staff dedicated to Individual and
        Community Preparedness initiatives and outreach.

        FEMA Response: FEMA concurs with thi recommendation.

        The ational Preparedness Directorate's Individual and Community Preparedness Division
        ((CPO) currently funds one contractor position in Region IX to develop and strengthen
        community preparedness efforts among Region IX states. Respon ibilities include providing
        technical assistance to State Citizen Corps and Community Emergency Response Team program
        managers, coordinating with internal FEMA and external partners to promote the importance of
        whole community planning and participation, a sisting States in managing strategic inve trnent
        for individual and commumty preparedness, and advancing the priority of involving the publie in
        emergency management initiative and activities.

        We recognize the criticality of dedicating staff to this priority. Therefore, [CPO is working to
        sustain the individual and community preparedness position/capability by in-sourcing the




                            Inspection of FEMA’s Regional Offices – Region IX 


                                                     Page 36

Appendix B
Management Comments to the Draft Report




        contract position. Once that position transitions, FEMA can proceed with posting, interviewing
        and hiring a federal employee to fulfill the requirements of a community preparedncss specialist
        in Region IX.

        With regards to additional positions dedicated to individual and community preparedness, the
        Regional Administrators have authority to re-align positions within their offices based on their
        respective priorities.

        FEMA believes this satisfies the intent of the recommendation and requests that this
        recommendation be resolved and closed.

        Recommendation #2: Provide further guidance or instruction on lhe roles and responsibilities of
        Region IX in the Protection and Prevention mission area.

        FEMA Response: FEMA non-concurs with this recommendation.

        During the summer of201 0, FEMA's Protection and National Preparedness (PNP)/Office of
        Counterterrorism and Security Preparedness (OC5P) developed two guidance documents
        intended to provide FEMA Regional Offices with clarification and support in implementing and
        coordinating preparedness prevention and protection mission area activities. More specifically=
        OCSP developed the following documents: "Regional Prevention and Protection Roles and
        Responsibilities," and "Regional Coordination Strategy - Prevention and Protection Mission
        Support."

        These documents were coordinated with, and reviewed by, the DHS Office of Intelligence and
        Analysis, DHS Office for Infrastructure Protection, and the FEMA Office of Chief Security
        Officer. On August 12,2010, OCSP released these documents to the Regional Federal
        Preparedness Coordinators (FPCs).

        In addition to the development, coordination and provision of these intemal guidance documents,
        OCSP worked with PNP's Office of Preparedness Integration and Coordination (OPIC) to
        incorporate the protection and prevention mission areas into the Annual Program Plan (APP)
        guidance provided to the regions -- in order to encourage the implementation and coordination of
        prevention and protcction mission area activities.

        OCSP has endeavored to provide increased support, guidance and information sharing to the
        FEMA Regional Offices. OCSP participates in quarterly strategic meetings and discussions with
        all of the Regional FPCs in order to better understand and support their unique regional needs,
        goals and objectives, and to ensure there are no barriers in infonnation sharing between OCSP
        and the FEMA Regional Offices.

        FEMA believes this satisfies the intent of the recommendation and requests that this
        recommendation be resolved and closed.




                                                                                                           2




                           Inspection of FEMA’s Regional Offices – Region IX 


                                                    Page 37

Appendix B
Management Comments to the Draft Report




        Recommendation #3: Coordinate with Region IX to develop a pilot program that allows
        regional staff to serve as either a contracting officer's technical representative or a task monitor
        for the Regional Exercise Support Program.

         FEMA Response: FEMA non-concurs with this recommendation.

        The Regions do not require contracting officer representative (COTR) authority to manage
        and/or monitor contractor perfomlance of the Regional Exercise Support Program (RESP). Like
        all FEMA Regions, Region IX already retains broad authority over the implementation of tile
        RESP and the perfomlance of respective contractors to include: approving/dcnying RESP
        applications, developing and approving the contractor work plan, overseeing the perfonnance of
        the work, monitoring contractor engagement with state and local officials, and conducting all
        follow-up required. Per the RESP Implementation Plan roles and responsibilities. Section 2.1.2;
        the Regional Offices "Assume contractual responsibilities for the RESP to include
        approval/signatory authority for contractor work plans." The RESP contract has been
        administered by FEMA Headquarters to maximize efficiency of resources. A distributed RESP
        would create unnecessary redundancy of effort and FEMA would lose current efficiencies
        realized through central contract management. Additionally, after soliciting them for feedback
        on this issuc, most of the regions preferred that the RESP contract bc centrally managcd.

        Finally, FEMA Headquarters is transitioning to a new contracting model to provide functional-
        based exercise serviccs to allow tailoring of exercise support for the NEP and Regions. This
        model requires multiple contracts and it is not feasible or efficient for multiple contracts to be
        managed within each respective Region to support the same overarching program. FEMA
        Headquarters will continue to work with the Regions to refine processes and procedures while
        ensuring centralized coordination to enable execution of the NEP and promote consistency, best
        practices and lessons learned throughout all FEMA Regions.

        FEMA believes this satisfies the intent of the recommendation and requests that this
        recommendation be resolved and closed.

        Recommendation #4: Ensure that the FEMA Rcgional Offices are enforcing the tenns and
        conditions of FEMA/State agreements and using the rcmedics for noncompliance under thc
        federal regulations to improve the timeliness of the disaster e1oseoul process.

        FEMA Response: FEMA concurs with this recommendation.

        As part of the larger Grant Management remediation activity in FY 2012, FEMA will be
        addressing the internal control weakness around closeout.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        Recommendation #5: Realign staffing and resources to ensure Region IX's Grants Division can
        properly conduct the financial and programmatic monitoring of disaster and non~disaster grant
        programs.


                                                                                                               3




                           Inspection of FEMA’s Regional Offices – Region IX 


                                                     Page 38

Appendix B
Management Comments to the Draft Report




         FEMA Response: FEMA concurs with this recommendation.

        Region IX Grants Management Division has been identified tentatively as a pilot for
        regionalization of Homeland Security Grant Programs that are currently being managed by
        FEMA Grants Program Directorate. The pilot would potentially provide additional resources to
        support the existing and increased workload assigned to the Region. The pilot project requires
        all implementation plan that includes an assessment to detennine the additional resources needed
        by the Region. The projected completion for the assessment is December 20 [ I.

        FEMA believes this satisfies the intent of the recommendation and requests that this
        recommendation be resolved and closed.

        Recommendation #6: Coordinate, engage, and consult with qualified stakeholders from the
        access and functional needs community to completely integrate their needs into region~wide
        disaster planning efforts.

        FEMA Response: FEMA concurs with this recommendation.

        At the time of the Inspector General visit to Region IX, all FEMA regional offices were just
        integrating their Regional Disability Integration Specialist into regional activities and
        responsibilities. Since that time, the Region IX Regional Disability Integration Specialist (RDIS)
        has made significant progress in coordinating Functional Needs Support Services (FNSS) related
        interactions across a broad array ofjurisdictions and operational areas with an emphasis on our
        larger, more heavily populated jurisdictions. In tum, these stakeholders and the jurisdictions
        provide the RDIS with feedback on successes, challenges, and concerns.

        Region IX has further driven the outreach initiative by fonning FEMA's first Regional
        Functional Needs Working Group (FNWG) that met for the first time in late October 2011.
        While travel budgets that would allow for greater interaction and visibility continue to be an
        issue, the senior leadership in FEMA Region IX remains supportive of RDIS efforts to
        coordinate the needs of the functional needs community with the realities of emergency
        management officials. The Region feels increased coordination of intcmal regional training that
        embraces Functional Needs awareness and planning is essential. Divisional support 10 achieve
        RDIS integration into planning and exercises within FEMA Region IX continues successfully.

        FEMA believes this satisfies the intent of the recommendation and requests that this
        recommendation be resolved and closed.

        ReconunendatioD #7: Complete the Regional Training Program, developing a standardized or
        coordinated training cumculwn that includes training for how to incorporate those with access
        and functional needs into disaster planning.
        FEMA Response: FEMA concurs with this recommendation.
        During Fiscal Year 20 I0, and prior to the visit of the Inspector General, FEMA Region IX
        recognized the need for a plan to properly manage training funds, and provide guidance on
        course identification and selection. In October 2010, the Regional Administrator approved the

                                                                                                          4




                           Inspection of FEMA’s Regional Offices – Region IX 


                                                    Page 39

Appendix B
Management Comments to the Draft Report




        establishment of the Regional Twining Working Group (RTWG), comprised of regional senior
        leadcrship. The goal of the RTWG, chaired by thc Deputy Regional Administrator and stafTed
        by the Division Directors. is to establish opportunities for professional development and enhance
        the level of preparedness needed for a wide range of potential incidents 10 ensure mission
        success.
        The RTWG proposed a strategy to identify. conduct, and track applicable training related to
        employee developmcnt and disaster support roles. while ensuring senior management oversight
        and directed regional training staff to conduct a training needs assessment (TNA). The TNA was
        developed and implemented using free onlinc tools and metrics. and has proven to be a valuable
        tool to justify and focus on the region's training priorities and align program objectives with
        available funding.
        As a result, Region IX has implemented ··stand·down training days," consolidated the selection
        of courses and meeting schedules to maximize participation, developed methods to prioritize
        trainees, and realized a sib'llificant cost saving to FEMA. The "stand- down training days" in
        particular, incorporates all staff and includes an open discussion of issues particular to the needs
        of our various stakeholders, including those with special needs.
        I.n addition Region IX. through the direction of the FEMA Administrator, is also in the process of
        integrating the Radiological Emergency Preparedness PrOb1fam into the larger world of
        emergency management - thereby increasing its scope and the integration of those with special
        needs into the Program, which includes on.the-spot educational training for issues that emerge
        during the off-site portions of the exercises. This was true this past year as our own Disability
        Integration Specialist and his service animal were run through the decontamination process.
        Finally. disaster planning currently being conducted by the Response Division incorporates the
        "whole community" initiative and seeks participation across the full spectrum of conullunity.
        This outreach is intended to strengthen the assets, institutions, and social processes that work
        well in a community to improve resilience and emergency management outcomes. Though
        intemal training thus far has not specifically targeted courses that teach methods for including
        those with access and functional needs into disaster planning activities, this topic will be
        proposed to the RTWG for incorporation into future training opportunities.

        FEMA believes this satisfies the intent of tile recommendation and requests that this
        recommendation be resolved and closed.

        Recommendation #8: Reconvene the Regional Advisory Council and identify aitemative
        methods to facilitate meetings with council members.

        FEMA Response: FEMA concurs with this reconunendation.

        On August 2, 2011, Region IX held a meeting of its Regional Advisory Council (RAe) at the
        regional office in Oakland, Califomia. In addition to the regional senior management team.
        pmticipating were new members that had recently been appointed by the Regional
        Administrator. The agenda induded discussions of the six priorities of the Regional
        Administrator for Fiscal Year 2011 and presentations on Whole Community, Presidential Policy
        Directive


                                                                                                               5




                           Inspection of FEMA’s Regional Offices – Region IX 


                                                     Page 40

Appendix B
Management Comments to the Draft Report




        #8- National Preparedness and the National Disaster Recovery Framework. Cognizant oflhe
        geographical and logistical challenges ofl11eeting quarterly in person, RAC members discussed
        at len!:,'th measures to be taken to allow for very frequent dialogue. Members agreed that there
        will be two in-person meetings in Oakland. California and two or more video conference and
        teleconference discussions to effectively carry out its mission. A videoconference for RAC
        members is scheduled for late November 20 II. Region IX will also be communicating routinely
        with RAC members by email, forwarding appropriate draft documents or policies for their
        review and providing infom18tion documents.

        FEMA believes this satisfies the intent oftbe recommendation and requests that this
        recommendation be resolved and closed.

        Recommendation #9: Realign resources to ensure that Region IX has the necessary resources to
        fulfill its mission, including its legislated responsibilities and delegated authorities.

        FEMA Response: FEMA non-concurs with this recommendation.

        FEMA will continue to take into consideration the specific needs of Region IX, including the
        Report's findings, but must also consider the current budget challenges and the competing needs
        across the agency.

        FEMA believes this satisfies the intent of the recommendation and requests that this
        recommendation be resolved and closed.

        We thank you, again, for the opportunity to provide our comments to your recommendations
        contained in your draft report. Should you have further questions regarding our response, please
        do not hesitate to call FEMA's Chief Audit Liaison, Brad Shefka, at 202-646-1308.




                                                                                                       6




                           Inspection of FEMA’s Regional Offices – Region IX 


                                                   Page 41

Appendix C
Regional Responsibilities and Delegated Authorities



                                     Regional Responsibilities and Delegated Authorities
 Regional Division            R1     R2     R3     R4     R5     R6     R7     R8     R9     R10     A1     A2     A3     A4     A5     A6     A7     A8
 Office of Administrator                                                                     X
 National Preparedness        X      X                    X      X      X      X      X                                                        X
 Recovery                     X      X                                         X                                   X                                  X
 Response                     X      X      X      X      X      X                    X                     X             X             X
 Mitigation                   X      X                                                                                                                X
 Mission Support                     X                    X                           X              X     X              X
 Grants                                                                                                                          X      X             X

R1: Work with state, local, and tribal governments, emergency response providers, and other appropriate entities to identify and address regional 

priorities. 

R2: Ensure effective, coordinated, and integrated regional preparedness, protection, response, recovery, and mitigation activities and programs for

natural disasters, acts of terrorism, and other manmade disasters (including planning, training, exercise, and professional development). 

R3: Assist in the development of regional capabilities needed for a national catastrophic response system.

R4: Coordinate the establishment of effective regional operable and interoperable emergency communications capabilities.

R5: Staff and oversee one or more strike teams to serve as the focal point of the federal government’s initial response efforts for natural disasters, acts 

of terrorism, and other manmade disasters within that Region, and otherwise build federal response capabilities to respond to natural disasters, acts of 

terrorism, and other manmade disasters within that Region.

R6: Designate an individual responsible for the development of strategic and operational regional plans in support of the National Response Plan 

(referred to as the National Response Framework since 2008). 

R7: Foster the development of mutual aid and other cooperative agreements. 

R8: Identify critical gaps in regional capabilities to respond to populations with special needs. 

R9: Maintain and operate a Regional Response Coordination Center or its successor. 

R10: Establish a Regional Advisory Council. 

A1: Issue mission assignments in excess of $10 million. 

A2: Contract for airlift. 

A3: Approve Fire Management Assistance Grants.

A4: Approve 40-1 actions for nondisaster acquisitions. 

A5: Determine the annual grants monitoring requirements and schedule. 

A6: Fiscally oversee the (a) Emergency Management Performance, (b) Emergency Operations Center, and (c) Driver’s License Security grant 

programs. 

A7: Oversee the Regional Exercise Support Program. 

A8: Review and approve funding for State Management Administrative Costs for the Public Assistance and Hazard Mitigation Grant Programs.





                                                        Inspection of FEMA’s Regional Offices – Region IX 


                                                                              Page 42

Appendix D
FEMA Grant Programs

Grant Programs Designated for Financial Monitoring by FEMA Headquarters
      Assistance to Firefighters
      American Recovery and Reinvestment Act of 2009 – Station Construction Grants
      Fire Prevention and Safety
      Staffing for Adequate Fire and Emergency Response

Grant Programs Designated for Financial Monitoring by FEMA Regional Offices
Disaster Assistance
  Alternative Housing Pilot Program                              ARRA – Emergency Food and Shelter National Board
  Crisis Counseling                                              Fire Management Assistance
  Debris Removal Insurance                                       Individuals and Households – Other Needs
  Disaster Assistance Project-Direct Loans                       Katrina Case Management
  Disaster Donations Management                                  Public Assistance
  Emergency Food and Shelter National Board                      United Methodist Committee on Relief
Disaster Operations
  Urban Search and Rescue Cooperative Agreement (Activations)
  Urban Search and Rescue Cooperative Agreement (Preparedness)
Grant Programs
  Buffer Zone Protection Program                                 Mississippi Interoperable Communications Grant Program
  Driver’s License Security Grant Program (Real ID)              Operation Stonegarden
  Emergency Management Performance Grant Program                 Port Security Grant Program
  Emergency Operations Centers                                   ARRA – Port Security Grant Program
  Freight Rail Security Grant Program                            Public Safety Interoperable Communications Program
  Homeland Security Grant Program:                               Transit Security Grant Program
  – Citizen Corps Program                                        Tribal Homeland Security Grant Program
  – Metropolitan Medical Response System Grants                  ARRA – Transit Security Grant Program
  – State Homeland Security Grant Program                        Trucking Security Program
  Intercity Bus Security Grant Program                           Urban Areas Security Initiative Nonprofit Security Grant
  Intercity Passenger Rail Security                              Program
  Interoperable Emergency Communication Grants
Mitigation
  Community Assistance Program – State Support Services          Hazard Mitigation Grant Program
  Element                                                        Map Modernization Management Support
  Cooperating Technical Partners                                 National Dam Safety
  Earthquake Consortium                                          National Emergency Management Association
  Earthquake State Assistance                                    Pre-Disaster Mitigation Competitive
  Earthquake Technology Transfer                                 Pre-Disaster Mitigation JES Earmark FY10
  Flood Insurance Rate Maps                                      Repetitive Flood Claims
  Flood Mitigation Assistance                                    Severe Repetitive Loss
National Preparedness
  Chemical Stockpile Emergency Preparedness Program              Homeland Security Preparedness Technical Assistance
  Citizen Corps Program:                                         Program
  – International Association of Chiefs of Police                National Exercise Program
  – National Volunteer Fire Council                              National Incident Management System
  Competitive Training Grant                                     National Training Program
  Evaluations and Assessment                                     Regional Catastrophic Preparedness Grant Program
                                                                 Systems Support Grant Program
USFA
  Degrees at a Distance Training Assistance                      PARADE Grants
  Firefighter Emergency Medical Services Outreach,               Residential Fire Safety & Fire Sprinkler Technology
  Technology Transfer, Information Dissemination and             Safe Kids
  Technical Assistance                                           State Fire Training Systems Grants
  Fire Service Hazardous Materials                               TRADE Grants
  International Association of Fire Fighters John P. Redmond     Volunteer Fire and Emergency Medical Services
  Symposium                                                      Resource Initiative
  National Fallen Firefighter Memorial Program                   National Fire Academy Educational Program


                                Inspection of FEMA’s Regional Offices – Region IX

                                                       Page 43
Appendix E
Major Contributors to this Report

                    Amy Hall, Director
                    Modupe Akinsika, Audit Manager
                    Soraya Vega, Audit Manager
                    Ryan Hartong, Program Analyst
                    Erica Stern, Program Analyst
                    Ken Valrance, Auditor
                    Stuart Josephs, Referencer




                     Inspection of FEMA’s Regional Offices – Region IX

                                         Page 44
Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      DHS Audit Liaison

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator
                      Regional Administrator, Region IX
                      Deputy Regional Administrator, Region IX
                      FEMA GAO/OIG Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                       Inspection of FEMA’s Regional Offices – Region IX 


                                            Page 45

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
